No. 20-222
IN THE

Supreme Court of the United States
GOLDMAN SACHS GROUP, INC., ET AL.,
Petitioners,
v.
ARKANSAS TEACHER RETIREMENT SYSTEM, ET AL.,
Respondents.
On Writ of Certiorari
to the United States Court of Appeals
for the Second Circuit
BRIEF OF EVIDENCE LAW PROFESSORS AS AMICI
CURIAE IN SUPPORT OF THE RESPONDENTS
ALLISON EHLERT
EHLERT HICKS, LLP
2001 Addison Street,
Suite 300
Berkeley, CA 94709
(510) 833-7339
aehlert@ehlerthicks.com

RACHEL BLOOMEKATZ
Counsel of Record
BLOOMEKATZ LAW LLC
1148 Neil Avenue
Columbus, OH 43201
(614) 259-7611
rachel@bloomekatzlaw.com

Counsel for Amici Curiae
(additional counsel listed on inside cover)
March 3, 2021

JEREMY A. LIEBERMAN
EMMA GILMORE
MARC I. GROSS
POMERANTZ LLP
600 3rd Avenue
New York, NY 10016
(212) 661-1100
jalieberman@pomlaw.com
MICHAEL DELL’ANGELO
SHERRIE R. SAVETT
BERGER MONTAGUE
1818 Market Street, Suite 3600
Philadelphia, PA 10103
mdellangelo@bm.net

-iTABLE OF CONTENTS
Table of authorities ............................................................. iii
Interest of amici curiae ........................................................ 1
Introduction and summary of argument ........................... 4
Argument .............................................................................. 6
I.
Rule 301 prescribes a default rule that allows
courts to assign the burden of persuasion to the
party opposing a presumption when necessary
to properly apply the substantive law at issue. ..... 6

II.

A.

Rule 301 is a default rule. ............................ 6

B.

Statutory doctrine can displace the
generally applicable Rule 301. .................... 7

The substantive law of securities fraud shifts
the burden of persuasion to defendants to
rebut the Basic presumption. ............................... 10
A.

The Basic presumption is a substantive
doctrine of federal securities statutes. ..... 10

B.

The same reasons that prompted the
Court to create the Basic presumption
also require shifting the burden of
persuasion to defendants seeking to
rebut that presumption. ............................. 11

C.

Basic’s reference to the Rule 301
Advisory Committee Note further
supports the conclusion that defendants
must rebut the Basic presumption by a
preponderance of the evidence. ................ 16

-iiIII.

The difficulty of establishing the Basic
presumption demonstrates that defendants
should bear the burden of persuasion on
rebuttal. ................................................................... 19

IV.

No federal court of appeals has held that
defendants can rebut the Basic presumption
by merely producing evidence that there was
no price impact........................................................ 22
A.

Circuit courts uniformly hold that the
Rule 301 default does not apply. ............... 23

B.

Goldman Sachs and its amici cite cases
that are inapposite. ..................................... 25

Conclusion ........................................................................... 27

-iiiTABLE OF AUTHORITIES
Cases

Amchem Products, Inc. v. Windsor,

521 U.S. 591 (1997) ....................................................... 13

Amgen Inc. v. Connecticut Retirement Plans &
Trust Funds,

568 U.S. 455 (2013) ................................................. 10, 11

Anderson v. Liberty Lobby, Inc.,

477 U.S. 242 (1986) ....................................................... 21

Basic Inc. v. Levinson,
485 U.S. 224 (1988) .............................................. passim
Bing Li v. Aeterna Zentaris, Inc.,
324 F.R.D. 331 (D.N.J. 2018), aff’d sub nom.
Vizirgianakis v. Aeterna Zentaris, Inc.,
775 F. App’x 51 (3d Cir. 2019) ..................................... 28

Cammer v. Bloom,

711 F. Supp. 1264 (D.N.J. 1989) .................................. 21

Finkel v. Docutel/Olivetti Corp.,

817 F.2d 356 (5th Cir. 1987) ......................................... 25

Gariety v. Grant Thornton, LLP,

368 F.3d 356 (4th Cir. 2004) ......................................... 21

Halliburton Co. v. Erica P. John Fund, Inc.,
573 U.S. 258 (2014) .............................................. passim

IBEW Local 98 Pension Fund v. Best Buy Co.,

818 F.3d 775 (8th Cir. 2016) ................................... 26, 27

In re Allstate Corp. Securities Litigation,

966 F.3d 595 (7th Cir. 2020) ............................. 16, 24, 27

-iv-

In re CenturyLink Sales Practices & Securities
Litigation,

337 F.R.D. 193 (D. Minn. 2020) ................................... 27

In re DVI, Inc. Securities Litigation,

639 F.3d 623 (3d Cir. 2011) .......................................... 21

In re PolyMedica Corp. Securities Litigation,

432 F.3d 1 (1st Cir. 2005) ............................................. 21

KBC Asset Management NV v. 3D Systems Corp.,
No. CV 0:15-2393-MGL, 2017 WL 4297450
(D.S.C. Sept. 28, 2017).................................................. 28

Keyes v. School District No. 1,

413 U.S. 189 (1973) ......................................................... 8

Krogman v. Sterritt,
202 F.R.D. 467 (N.D. Tex. 2001) ................................. 22

Local 703, I.B. of T. Grocery and Food Employees
Welfare Fund v. Regions Financial Corporation,

762 F.3d 1248 (11th Cir. 2014) ..................................... 24

Lupyan v. Corinthian Colleges, Inc.,

761 F.3d 314 (3d Cir. 2014) .......................................... 20

Matter of Multiponics, Inc.,

622 F.2d 725 (5th Cir. 1980) ......................................... 20

McCann v. Newman Irrevocable Trust,

458 F.3d 281 (3d Cir. 2006) .......................................... 20

-v-

National Labor Relations Board v. Transportation
Management Corp.,
462 U.S. 393 (1983), abrogated on other grounds
by Director, Office of Workers’ Compensation
Programs, Department of Labor v. Greenwich
Collieries, 512 U.S. 267 (1994) ....................................... 8
O’Boyle Tank Lines, Inc. v. Beckham,

616 F.2d 207 (5th Cir. 1980) ......................................... 20

Plymouth County Retirement System v. Patterson
Companies Inc.,

No. CV 18-871 (MJD/HB), 2020 WL 5757695
(D. Minn. Sept. 28, 2020) .............................................. 27

Unger v. Amedisys Inc.,
401 F.3d 316 (5th Cir. 2005) ......................................... 22

United States Department of Justice v. Landano,

508 U.S. 165 (1993) ....................................................... 10

Waggoner v. Barclays PLC,

875 F.3d 79 (2d Cir. 2017) ................................... passim

Rules
Fed. R. Evid. 301 ....................................................... passim
Advisory Committee Notes ................................... 17, 18
Legislative materials
H.R. Rep. No. 1383, 73d Cong., 2d Sess., 11 (1934) ........ 12
Other authorities
Edmund M. Morgan & John MacArthur Maguire,
Looking Backward and Forward at Evidence,
50 Harv. L. Rev. 909 (1937) ......................................... 18

-viEdmund M. Morgan,

Instructing the Jury Upon Presumptions and
Burden of Proof, 47 Harv. L. Rev. 59 (1933). ............ 10

Christopher B. Mueller & Laird C. Kirkpatrick,
1 Federal Evidence § 3:8 (4th ed.) .......................... 8, 18
Model Civ. Jury Instr. 9th Cir. § 18.5 (2020) ............. 25, 26
Pattern Civ. Jury Instr. 5th Cir. § 7.1 (2020) .................. 25
Stephen A. Saltzburg, Michael M. Martin & Daniel
J. Capra,
Federal Rules of Evidence Manual (12th ed.) ....... 7, 19
Transcript of Oral Argument,

Erica P. John Fund, Inc. v. Halliburton
Co., 563 U.S. 804 (2011) (No. 09-1403)........................ 23

9 J. Wigmore, Evidence § 2486 (3d ed. 1940) .................... 8

-1INTEREST OF AMICI CURIAE 1
Amici curiae are twenty-seven of the foremost scholars
in the field of evidence. They each teach, research, and
write about the law of evidence at law schools across the
country. The second question presented in this case asks
whether, in order to rebut the Basic presumption, defendants bear the burden of persuasion—as every circuit
court to address the issue has held—or whether they bear
only a burden of production, as Goldman Sachs argues.
Based on their expertise in the Federal Rules of Evidence,
presumptions, and evidentiary burdens, amici share the
view that defendants carry the burden of persuasion in rebutting the Basic presumption, and they urge this Court
to affirm the Second Circuit’s decision on this point. Amici
disagree with Goldman Sachs’s position that the default
rule of Federal Rule of Evidence 301 may be displaced
only if the burden of persuasion is mentioned explicitly in
the statute. Adopting that position would undermine
courts’ ability to effectuate statutory intent and is inconsistent with the nature of the presumption of reliance this
Court established in Basic and reaffirmed in Halliburton
II.
In alphabetical order, amici are: 2
Ronald J. Allen, John Henry Wigmore Professor of
Law, Northwestern University School of Law

No counsel for a party authored this brief in whole or in part,
and no one other than amici curiae or their counsel contributed money
to fund the preparation or submission of this brief. The parties consented to the filing of amicus briefs through global consent letters on
file with the clerk’s office.
2
Institutional affiliations are provided for identification purposes only. This brief does not purport to present the institutional
views, if any, of the named law schools.
1

-2Jessica Berch, Lecturer in Law, Sandra Day O’Connor
College of Law
Daniel Blinka, Professor of Law, Marquette University Law School
Donald Braman, Associate Professor of Law, The
George Washington University School of Law
Kenneth S. Broun, Professor of Law Emeritus, University of North Carolina School of Law
Daniel J. Capra, Reed Professor of Law, Fordham
Law School
Kevin Cole, Professor of Law, University of San Diego
School of Law
George Fisher, Judge John Crown Professor of Law,
Stanford Law School
Victor Gold, William H. Hannon Professor of Law,
Loyola Los Angeles Law School
Michael Graham, Professor of Law Emeritus, University of Miami School of Law
David Gray, Jacob A. France Professor of Law, University of Maryland School of Law
Michael J. Hutter, Professor of Law, Albany Law
School
Laird Kirkpatrick, Harkey Professor of Law, The
George Washington University School of Law
Tom Lininger, Orlando J. and Marian H. Hollis Professor, University of Oregon School of Law
Michael M. Martin, Distinguished Professor of Law,
Emeritus, Fordham Law School
Lynn McLain, Emerita Professor and Dean Joseph
Curtis Faculty Fellow, University of Baltimore School of
Law

-3Colin Miller, Professor of Law, University of South
Carolina School of Law
Jane Campbell Moriarty, Carol Los Mansion Chair in
Faculty Scholarship Professor of Law, Duquesne University School of Law
Christopher B. Mueller, Henry S. Lindsley Professor
of Law, University of Colorado School of Law
Roger Park, Distinguished Professor of Law and
James Edgar Hervey Chair in Litigation, University of
California Hastings College of Law
Richard J. Pierce, Jr., Lyle T. Alverson Professor of
Law, The George Washington University School of Law
Liesa R. Richter, George Lynn Cross Research Professor, William J. Alley Professor of Law, University of
Oklahoma Law School
Paul Rothstein, Carmack Waterhouse Professor of
Law, Georgetown University Law Center
Stephen A. Saltzburg, Wallace and Beverley Woodbury University Professor of Law, The George Washington University Law School
David Schlueter, Professor of Law, Hardy Chair
Emeritus, St. Mary’s University School of Law
Julia Simon-Kerr, Professor of Law, University of
Connecticut School of Law
Rebecca Wexler, Assistant Professor of Law, University of California Berkeley School of Law

-4INTRODUCTION AND SUMMARY OF ARGUMENT
Federal Rule of Evidence 301 does not stand in the
way of this Court adhering to its precedents and expressly
holding that defendants bear the burden of persuasion to
overcome the presumption of reliance spelled out in Basic
Inc. v. Levinson, 485 U.S. 224 (1988). That is because—
contrary to Goldman Sachs’s arguments—Rule 301 is not
absolute. Its shifting of the burden of production, but not
the burden of persuasion, is merely a default rule. That is
apparent on its face. The language “unless a federal statute or these rules provide otherwise” plainly recognizes
that the default rule is inapplicable if the substantive law
at issue necessarily demands that the defendants actually
show—i.e., prove—that the presumption cannot stand.
That is precisely the case here.
When interpreting statutes, this Court and the circuit
courts sometimes create presumptions to best effectuate
congressional intent. That is exactly how the Basic presumption came to be. The Court determined that the congressional policy embodied in the Securities Act of 1934
called for the full and accurate disclosure of information
related to securities to promote the integrity of the market
and the setting of “just” prices. The Court reasoned that
advancing that goal would best be achieved through a presumption of class-wide reliance if plaintiffs show, among
other things, that a defendant made material misrepresentations that affected a security’s price. Having created
and reaffirmed that presumption (in Halliburton Co. v.
Erica P. John Fund, Inc., 573 U.S. 258 (2014) (Halliburton II)), it is illogical to conclude that this Court is powerless to explain how it operates in practice—including how
burdens of proof are allocated. Rule 301 is a default rule,
not a muzzle that constrains a court’s ability to declare
how presumptions born of their interpretation of statutes

-5should work to further the intent of those statutes. This
Court has never before relented in the face of Rule 301—
neither in the securities context nor any other. And the
courts of appeals have uniformly (and correctly) construed
this Court’s decisions in Basic and Halliburton II as shifting to defendants the burden of persuasion to rebut the
presumption of reliance by demonstrating a lack of price
impact by a preponderance of the evidence.
Basic made clear that to overcome the presumption of
reliance, defendants must actually “sever[] the link” between the alleged misrepresentation and the price of the
security. 485 U.S. at 248. Halliburton II reaffirmed this
holding and suggested that “sever[ing] the link” would require defendants to adduce “more salient” evidence than
the plaintiffs. 573 U.S. at 282. Thus, the language of Basic
and Halliburton II, together with their focus on advancing Congress’s intent, show that the Court imposed on defendants the burden of persuasion, and not just a burden
of production, to rebut the presumption.
Further, Basic relied on a portion of the Advisory
Committee Note to Rule 301 that accompanied the original version of the Rule adopted by the Court and submitted to Congress in 1972. That version explicitly called for
defendants to bear the burden of persuasion in response
to presumptions. In citing the section of the Advisory
Committee Note corresponding to its proposed (but ultimately rejected) Rule, the Basic Court further made clear
its intent that defendants would actually have to prove
that no fraud on the market occurred to defeat the presumption of reliance.
Finally, invoking the Basic presumption is no easy
feat. Plaintiffs must make a considerable showing that often entails submitting expert analyses to establish market
reliance. If they can succeed in meeting the several

-6requirements (and numerous factors for assessing those
requirements) to trigger the presumption, it should not
vanish just because defendants put forth some evidence
creating a dispute as to price impact. Such a lack of proportion—demanding that plaintiffs perform the equivalent of rolling a boulder up a hill but allowing defendants
to give it a little nudge to roll it back down—is both unfair
and inconsistent with the reason for creating the presumption in the first place. It is therefore entirely appropriate
to impose upon defendants a burden of persuasion, rather
than a simple burden of production, to overcome plaintiffs’
hard-won presumption.
In sum, this Court should adhere to the reasoning of
Basic and Halliburton II, in addition to longstanding doctrine concerning how presumptions work, and hold that
defendants must actually prove a lack of price impact to
dismantle the Basic presumption.
ARGUMENT
I.

Rule 301 prescribes a default rule that allows courts
to assign the burden of persuasion to the party opposing a presumption when necessary to properly
apply the substantive law at issue.

Rule 301 is a default rule.
Rule 301 is a default rule that admits of exceptions.
That is clear from its text. Under Rule 301, an opposing
party bears only a burden of production in attempting to
overcome a presumption, “unless a federal statute or [the
Rules of Evidence] provide otherwise.” Fed. R. Evid. 301.
Rule 301’s default is that a presumption shifts the burden of production, but not the burden of persuasion, to the
party against whom a presumption is directed. This is
known as the “bursting bubble” view of presumptions. It
doesn’t take much to burst a bubble, only enough for a

-7reasonable person to find evidence inconsistent with the
presumption. In fact, “[t]he Advisory Committee [that
drafted Rule 301] was of the view that a presumption
would have too slight an effect—would essentially be rendered meaningless—if it merely served to shift the burden
of going forward; the Advisory Committee’s proposed
Rule 301 thus provided for burden-shifting. But Congress
rejected this position.” Stephen A. Saltzburg, Michael M.
Martin & Daniel J. Capra, 1 Federal Rules of Evidence
Manual § 301.02[1] (12th ed.). The end result was a compromise that recognized the Advisory Committee’s concern as well as a congressional preference for a less demanding default rule.
Rule 301 applies in mine-run cases. But in some situations, effectuating the purposes of the underlying substantive law demands that the party opposing the presumption
bear not just a burden of production, but also a burden of
persuasion. In those cases, Rule 301 is inapplicable.
Statutory doctrine can displace the generally
applicable Rule 301.
Goldman Sachs insists that unless a statute expressly
states that a party opposing a presumption bears the burden of persuasion, Rule 301 governs and the party bears
only a burden of production. Petr. Br. at 40–41. But Goldman Sachs’s cramped approach would wipe out all judicial
holdings that depart from Rule 301’s default—unless
those departures were based on explicit statutory authorization. That reflects a misreading of Rule 301 that endows
it with a sweeping power it does not have.
Courts and commentators alike have understood that
when necessary to satisfy the demands of the substantive
law being applied—including “statutory policy”—courts
may diverge from Rule 301’s default rule and allocate the
burden of persuasion to the opposing party. Indeed, this

-8Court has declared that Rule 301 “in no way restricts the
authority of a court or an agency to change the customary
burdens of persuasion in a manner that otherwise would
be permissible.” Nat’l Labor Relations Bd. v. Transp.
Mgmt. Corp., 462 U.S. 393, 403 n.7 (1983), abrogated on

other grounds by Dir., Office of Workers’ Comp. Programs, Dep’t of Labor v. Greenwich Collieries, 512 U.S.

267 (1994). As a leading evidence treatise explains: “Rule
301 contains exempting language . . . that permits courts
to accord to statutory presumptions (and to court-made
presumptions implementing statutes) an effect other than
the one prescribed by Rule 301” in order to satisfy “statutory policy.” Christopher B. Mueller & Laird C. Kirkpatrick, 1 Federal Evidence § 3:8 (4th ed.).
Many presumptions arise from judicial interpretations
of statutes—as in Basic—rather than from explicit statutory text. Goldman Sachs does not (and cannot given this
Court’s precedents) contend that courts lack the authority
to designate initial burdens based on their interpretation
of a statute. See Keyes v. Sch. Dist. No. 1, 413 U.S. 189,
209 (1973) (“This burden-shifting principle is not new or
novel. There are no hard-and-fast standards governing
the allocation of the burden of proof in every situation. The
issue, rather, ‘is merely a question of policy and fairness
based on experience in the different situations.’” (quoting
9 J. Wigmore, Evidence § 2486, at 275 (3d ed. 1940)). Since
courts can define the initial burden to invoke a presumption, it makes no sense to say that they are powerless to
define the opposing party’s burden to overcome that presumption. Such a holding would give courts considerable
freedom to establish what showing is necessary to trigger
a presumption, but then hold them hostage to the bursting
bubble when it comes to the amount of proof necessary to
overcome it.

-9What’s more, when a presumption arises from judicial
construction of a statute—again, as in Basic—it would be
absurd to expect that Congress specified in the statute the
opposing party’s burden to overcome a presumption that
did not yet exist. But that is what Goldman Sachs’ approach would require. Unsurprisingly, no court has ever
adopted such an irrational rule. Rather, just as judicial interpretations of statutes may create presumptions, so too
can they shift the burden of persuasion (and not just production) to the party rebutting the presumption when necessitated by statutory interpretation. It would be pointless for courts to go to the trouble of crafting presumptions based on legislative intent if they can be overcome
based on a mere burden of production. The famous evidence scholar Edmund M. Morgan described it as “little
short of ridiculous” to imagine that a plaintiff could succeed in invoking a presumption and then have it disappear
because a defendant put forth contradictory evidence but
did not actually have to persuade:
If a policy is strong enough to call a presumption into existence, it is hard to imagine it so
weak as to be satisfied by the bare recital of
words on the witness stand or the reception in
evidence of a writing. And if the judicial desire
for the result expressed in the presumption is
buttressed by either the demands of procedural
convenience or is in accord with the usual balance of probability, it is little short of ridiculous
to allow so valuable a presumption to be destroyed by the introduction of evidence without
actual persuasive effect.
Edmund M. Morgan, Instructing the Jury Upon Presumptions and Burden of Proof, 47 Harv. L. Rev. 59, 82
(1933).

-10Thus, the Basic presumption is an important part of
assuring the Securities Act of 1934 fulfills its purpose,
which it cannot do if it “bursts” and disappears upon the
production of any countervailing evidence by a defendant.
II. The substantive law of securities fraud shifts the
burden of persuasion to defendants to rebut the
Basic presumption.
This Court’s decisions in Basic and Halliburton II reflect precisely this sort of consideration of substantive law
of a statute—here section 10(b) of the Securities Act—in
both creating the Basic presumption and assigning the
burden of persuasion to defendants to rebut it. Thus, the
statute and its substantive law apply, not the generally applicable Rule 301.
The Basic presumption is a substantive doctrine
of federal securities statutes.
As an initial matter, the Basic presumption is undeniably grounded in a statutory source because this Court
adopted the presumption pursuant to federal securities
laws. This Court recognized in United States Department
of Justice v. Landano that the Basic presumption is one of
several “judicially created presumptions under federal
statutes that make no express provision for their use.” 508
U.S. 165, 174–75 (1993); see also Amgen Inc. v. Conn. Ret.
Plans & Trust Funds, 568 U.S. 455, 462 (2013) (referring
to the Basic presumption as “a substantive doctrine of federal securities–fraud law”); Basic, 485 U.S. at 245 (“The
presumption of reliance . . . supports[] the congressional
policy embodied in the 1934 Act.”).
Halliburton II left no doubt about the significance of
the Basic presumption as a necessary part of federal securities statutes. Halliburton II, 573 U.S. at 274. As in this
case, the defendants claimed that the court could not

-11invoke a presumption that was not expressly in the statute’s text. But the Court rejected that argument, reaffirmed Basic, and declined to revise the requirements for
invoking the presumption. Id. at 266–70. This Court recognized that Congress had even enacted legislation that
accepted the contours of the Basic presumption as described by the Court’s securities-fraud decisions. See
Amgen, 568 U.S. at 476 (“Congress rejected calls to undo
the fraud-on-the-market presumption of classwide reliance endorsed in Basic” when it passed the PSLRA). Accordingly, rather than requiring that all presumptions be
based in text, this Court recognized that the “[Basic] presumption is a judicially created doctrine designed to implement a judicially created cause of action,” and declared
that it is “a substantive doctrine of federal securities-fraud
law.” Halliburton II, 573 U.S. at 274. And if the presumption itself can be judicially created, it would be exceedingly
odd to hold that the effect of that presumption cannot be.
This is because, if the effect of the presumption must be
the bursting bubble, there is little reason to establish the
presumption in the first place.
The same reasons that prompted the Court to
create the Basic presumption also require shifting the burden of persuasion to defendants seeking to rebut that presumption.
Assigning the burden of persuasion to defendants is
consistent with the Basic Court’s reasoning for adopting
the presumption of reliance in the first place. And allowing
defendants to rebut the Basic presumption with just a single piece of evidence would undermine the entire basis for
the Basic presumption, and hence undermine the federal
securities statutes themselves.
In Basic—and later affirmed in Halliburton II—this
Court held that federal securities statutes necessitated

-12that plaintiffs be able to pursue a fraud-on-the-market
theory by establishing the elements for a presumption of
market reliance. Specifically, in Basic, the Court observed
that the “modern securities markets” are not based on
face-to-face transactions but rather transactions intermediated by the pricing mechanism of the market. 485 U.S.
at 243. “Requiring a plaintiff to show a speculative state of
facts, i.e., how he would have acted if omitted material information had been disclosed, or if the misrepresentation
had not been made, would place an unnecessarily unrealistic evidentiary burden on the Rule 10b-5 plaintiff who
has traded on an impersonal market.” Id. at 245. That in
turn would allow dishonest and fraudulent practices to
thrive, thereby disserving the “[u]nderlying . . . legislative
philosophy” of the 1934 Securities Exchange Act: “‘There
cannot be honest markets without honest publicity.’” Id.
at 230 (quoting H.R. Rep. No. 1383, 73d Cong., 2d Sess.,
11 (1934)).
In light of those considerations, the Court in Basic
adopted the presumption of reliance based on the fraudon-the-market theory. The Court explained that the presumption of reliance was necessary to effectuate Congress’s intent in enacting the Securities Act of 1934—to
promote market integrity by inducing the disclosure of all
material information about securities. Basic, 485 U.S. at
245–46. Accordingly, the Court reasoned that “[t]he presumption of reliance employed in this case is consistent
with, and, by facilitating Rule 10b-5 litigation, supports,
the congressional policy embodied in the 1934 Act.” Id. at
245.
But if a defendant can overcome that presumption
merely by producing evidence that its misrepresentations
did not affect a stock’s price—rather than proving as
much—Congress’s policy objective will be much harder to

-13vindicate. The statutory policies of the Securities Act will
not be served if the Basic presumption can be eliminated
by a defendant’s mere introduction of evidence sufficient
to create a factual issue on the question of reliance.
In addition, the Basic Court reasoned that the presumption of reliance is necessary to give plaintiffs a reasonable chance to certify classes of similarly situated defrauded investors. See Amchem Prods., Inc. v. Windsor,
521 U.S. 591, 617 (1997) (discussing importance of class actions in vindicating claims that may be too small or difficult to bring individually). Allowing plaintiffs to invoke a
presumption of reliance enables them to proceed as a class
by eliminating the need for “each class member to show
direct reliance on [a company’s] statements.” Basic, 485
U.S. at 230. As the Court noted in Basic, and repeated in
Halliburton II, “‘[r]equiring proof of individualized reliance’ from every securities fraud plaintiff ‘effectively
would . . . prevent [] [plaintiffs] from proceeding with a
class action’ in Rule 10b–5 suits” because if “every plaintiff
had to prove direct reliance on the defendant’s misrepresentation, ‘individual issues then would . . . overwhelm[]
the common ones,’ making certification under Rule
23(b)(3) inappropriate.” Halliburton II, 573 U.S. at 268
(quoting Basic, 485 U.S. at 242). The Basic presumption,
therefore, is necessary to allow small investors who are
harmed by a company’s misrepresentations to aggregate
their claims and not only be compensated but also vindicate the goals of the Securities Act.
By contrast, if adopted, Goldman Sachs’s position
would thwart class certification because plaintiffs would
have to either individually prove reliance (defeating predominance) or, according to Goldman Sachs (at 41–42)
prove price impact at the class certification stage. But this
Court already rejected the claim that plaintiffs must prove

-14price impact before class certification, stating that it
would “radically alter” the Basic presumption. Halliburton II, 573 U.S. at 278. Goldman Sachs’s argument is just
a thinly veiled attempt to effectively overrule that holding.
Its position is that it could introduce a single piece of evidence and then plaintiffs have to win that merits issue—
all at the preliminary Rule 23 phase. That contravenes this
Court’s holding that plaintiffs do not have to prove price
impact at the class certification stage.
Basic thus understood that Rule 301 must yield to the
appropriate application of the substantive law. Enabling
defendants to eliminate the presumption of reliance by
merely producing evidence that their alleged misrepresentations did not affect the stock’s price would seriously
handicap Rule 10b-5 actions as mechanisms for enforcing
the securities laws. Only by shifting the burden of persuasion to defendants on this issue can the Basic presumption
serve its intended purpose of “support[ing] . . . the congressional policy embodied in the 1934 Act” and facilitating class treatment of Rule 10b-5 claims, without which
considerable fraud will go unpunished. Basic, 485 U.S. at
245.
Halliburton II strengthened the proposition that defendants bear the burden of persuasion to overcome the
presumption. There, the defendants urged the Court to
overturn Basic. As a fallback position, the defendants argued that if the Court was not inclined to overturn Basic,
they could rebut the Basic presumption by merely producing contrary evidence. See Halliburton II Reply Br. at 23
(No. 13-317). This Court rejected both arguments. As to
defendants’ rebuttal requirements, the Court repeated
Basic’s holding that the presumption of reliance can be
overcome by “‘[a]ny showing that severs the link’” between the alleged misrepresentation and the price of the

-15security (or the plaintiff’s decision to trade at fair market
price). Halliburton II, 573 U.S. at 269 (quoting Basic, 485
U.S. at 248). For example, one such “showing” might be
that “the alleged misrepresentation did not, for whatever
reason, actually affect the market price.” Id.
Goldman Sachs contends that Basic’s use of the word
“any” in the phrase “any showing” imposes a lenient
standard for defendants to meet, along the lines of the
Rule 301 default rule. But in context, the word “any” in
Basic meant that there are a number of different kinds of
facts that could be offered to “sever[] the link” between
the alleged misrepresentation and the presumed fact of
reliance. See 485 U.S. at 249 (giving examples of rebuttal
such as a showing that news of the truth had “credibly entered the market and dissipated the effects of the misstatements,” or a showing that the plaintiffs “would have
divested themselves of their [] shares without relying on
the integrity of the market”). While there are different
ways that a defendant could actually show the absence of
reliance in order to meet its rebuttal burden, this does not
mean that any fact will actually (or virtually automatically)
rebut the presumption. See In re Allstate Corp. Sec.
Litig., 966 F.3d 595, 611 (7th Cir. 2020) (“After all, Basic
said that ‘[a]ny showing that severs the link’ would be sufficient to rebut the presumption, . . . not that mere production of evidence would defeat the presumption.”).
In permitting defendants to challenge the presumption at the class certification stage, rather than waiting until the merits, Halliburton II said that courts are not required “to ignore a defendant’s direct, more salient evidence showing that the alleged misrepresentation did not
actually affect the stock’s market price and, consequently,
that the Basic presumption does not apply.” 573 U.S. at
282 (emphasis added). “More salient evidence” is the

-16language of a burden of persuasion, not a mere burden of
production. The concurrence echoed this statement, emphasizing that the Court’s opinion “recognizes that it is incumbent upon the defendant to show the absence of price
impact.” Id. at 284 (emphasis added).
Goldman Sachs admonishes that the language from
this Court should not be “parsed” and is “scant evidence”
that this Court shifted the burden of persuasion. Petr. Br.
at 41. But it is not just the words this Court used in Basic
and Halliburton II that place the burden of persuasion on
defendants—and those words are important. It is the
Court’s reasoning that demonstrates that the substantive
law of 1934 Act requires defendants who are seeking to
rebut the presumption of reliance to carry the burden of
persuasion.

Basic’s reference to the Rule 301 Advisory Com-

mittee Note further supports the conclusion that
defendants must rebut the Basic presumption
by a preponderance of the evidence.
Ignoring this Court’s reasoning and language in Basic
and Halliburton II, Goldman Sachs asserts that Rule 301
must apply because it was cited in Basic. Petr. Br. at 41.
But its reliance on the citation to Rule 301 is misplaced.
The Court’s citation to Rule 301, and specifically to the Advisory Committee Note, helps respondents, not petitioners.
First, Basic cited Rule 301 and its Advisory Committee Note to support this statement: “Arising out of considerations of fairness, public policy, and probability, as well
as judicial economy, presumptions are also useful devices
for allocating the burdens of proof between parties.” 485
U.S. at 245. The Court’s citation for that principle was:
“See E. Cleary, McCormick on Evidence 968–969 (3d ed.
1984); see also Fed.Rule Evid. 301 and Advisory

-17Committee Notes, 28 U.S.C.App., p. 685.” No one disputes
that presumptions can be such “useful devices.” And this
mere citation does not stand for the greater proposition
that Rule 301’s mere burden of production applies here for
rebutting the presumption the Basic Court found necessary to effectuate the Securities Act.
But even more telling is the Court’s cite to the Advisory Committee Note accompanying Rule 301 and to a
specific pin cite. The cited Note was written to accompany
the version of Rule 301 that this Court approved in 1972.
That version required parties rebutting a presumption to
carry the burden of persuasion, not just production. 3 And
the accompanying Note made clear that the Court was approving an approach to presumptions that shifted the burden of persuasion to a party against whom a presumption
operated.
The Note states: “Presumptions governed by this rule
are given the effect of placing upon the opposing party the
burden of establishing the nonexistence of the presumed
fact, once the party invoking the presumption establishes
the basic facts giving rise to it.” Fed. R. Evid. 301, Advisory Comm. Notes (emphasis added) (citing Edmund M.
Morgan & John MacArthur Maguire, Looking Backward
and Forward at Evidence, 50 Harv. L. Rev. 909, 913
(1937)). As the Advisory Committee Note further explains, applying only the burden of production on a party
seeking to rebut a presumption would be “too slight.” It
stated:

That version of the rule provided: “In all cases not otherwise
provided for by Act of Congress or by these rules, a presumption imposes on the party against whom it is directed the burden of proving
that the nonexistence of the presumed fact is more probable than its
existence.” Mueller & Kirkpatrick, Federal Evidence, at § 3:1.
3

-18The so-called “bursting bubble” theory, under
which a presumption vanishes upon the introduction of evidence which would support a finding of the nonexistence of the presumed fact,
even though not believed, is rejected as according presumptions too “slight and evanescent”
an effect.
Id. (emphasis added) (quoting Morgan & Maguire, Looking Backward and Forward at Evidence, at p. 913). 4
Congress, however, rejected the Rule adopted and
submitted by the Court and instead modified it so that defendants bear only the burden of production. Naturally,
the Basic Court would have been aware of Congress’s rejection of its proposed Rule 301 and Congress’s adoption
of a more modest rule. But that makes the Basic Court’s
reliance on the Advisory Committee Note to the original
proposed rule, and its comment about the usefulness of
presumptions in allocating “burdens of proof,” highly
meaningful. Rather than advancing Goldman Sachs’s argument that the citation means Rule 301’s meager burden
should apply, the citation to the Advisory Committee Note
to the original proposal further emphasizes the Court’s
understanding that the burden of persuasion for rebutting
the Basic presumption rests with the defendant.

As one treatise has put it: “The Advisory Committee was of the
view that a presumption would have too slight an effect—would essentially be rendered meaningless—if it served to shift the burden of
going forward; the Advisory Committee’s proposed Rule 301 thus provided for burden-shifting.” Saltzburg, Martin & Capra, 1 Federal
Rules of Evidence Manual § 301.02[1].
4

-19III. The difficulty of establishing the Basic presumption
demonstrates that defendants should bear the burden of persuasion on rebuttal.
The Basic presumption requires plaintiffs to make a
much greater showing than is required for other presumptions governed by Rule 301—including submitting expert
reports and technical analysis. That too supports placing
a correspondingly higher burden on defendants to rebut
the presumption than what is dictated by Rule 301.
The typical presumption requires little of a party seeking to rely on it. And thus it makes sense that for the typical presumption, little is required of a party seeking to
rebut it. For example, the classic “mailbox rule” provides
that a party may rely on the presumption that a properly
addressed envelope that was mailed also was received by
the addressee by simply offering testimony that the letter
was properly addressed and mailed. The rebuttal evidence, in turn, can simply be the other party’s statement
“I did not get it.” See Lupyan v. Corinthian Colleges, Inc.,
761 F.3d 314, 320–22 (3d Cir. 2014). Other examples of presumptions subject to the Rule 301 default rule are also relatively simple to establish. See, e.g., McCann v. Newman
Irrevocable Trust, 458 F.3d 281, 286–87 (3d Cir. 2006) (describing presumption that “a domicile once acquired is
presumed to continue until it is shown to have been
changed,” and that rebutting the presumption merely requires showing that one has taken up residence in the new
domicile and intends to remain there) (internal quotation
marks and citation omitted); Matter of Multiponics, Inc.,
622 F.2d 725, 728 (5th Cir. 1980) (explaining that “where
funds are on deposit at a bank, a presumption of a debtorcreditor relationship arises,” but that the presumption can
be rebutted “when the funds on deposit with the bank are
held in a special account or impressed with a trust”);

-20-

O’Boyle Tank Lines, Inc. v. Beckham, 616 F.2d 207, 209

(5th Cir. 1980) (in interstate shipment of goods, the shipper is presumed liable to the carrier for freight charges;
this presumption may be rebutted by the bill of lading or
other facts and documents which indicate that another has
the true beneficial interest in the goods).
The evidentiary burden of rebuttal in such cases is
quite meager, often described as sufficient evidence to
withstand a motion for summary judgment or judgment
as a matter of law. See e.g., McCann, 458 F.3d at 288. Any
evidence that a trier of fact could believe is ordinarily sufficient to overcome a motion for summary judgment or a
directed verdict because “[t]he evidence of the non-movant is to be believed, and all justifiable inferences are to
be drawn in his favor.” Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 255 (1986). That means that the burden of
rebutting presumptions governed by Rule 301’s default
rule is weak.
By contrast, invoking the Basic presumption is not a
simple matter. It is much more demanding than the typical presumption. To trigger the Basic presumption of reliance, plaintiffs must show by a preponderance of the evidence “(1) that the alleged misrepresentations were publicly known, (2) that they were material, (3) that the stock
traded in an efficient market, and (4) that the plaintiff
traded the stock between the time the misrepresentations
were made and when the truth was revealed.” Halliburton
II, 573 U.S. at 268 (citing Basic, 485 U.S. at 248 n.27).
These elements often incorporate sub-factors. For example, several circuits have endorsed the use of what are
known as the “Cammer” factors (drawn from Cammer v.
Bloom, 711 F. Supp. 1264 (D.N.J. 1989)) for assessing the
market-efficiency requirement. See Waggoner v. Barclays
PLC, 875 F.3d 79 (2d Cir. 2017); In re DVI, Inc. Sec. Litig.,

-21639 F.3d 623, 634 n.16 (3d Cir. 2011); In re PolyMedica
Corp. Sec. Litig., 432 F.3d 1, 18 (1st Cir. 2005); Gariety v.
Grant Thornton, LLP, 368 F.3d 356, 368 (4th Cir. 2004).
The Cammer factors consist of: (1) the average weekly
trading volume of the stock; (2) the number of securities
analysts following and reporting on the stock; (3) the extent to which market makers traded in the stock; (4) the
issuer’s eligibility to file an SEC registration Form S-3;
and (5) the demonstration of a cause and effect relationship between unexpected, material disclosures and
changes in the stock’s price. Waggoner, 875 F.3d at 94. 5
As the Halliburton II Court noted, to satisfy these elements by a preponderance of the evidence, plaintiffs
must typically submit “event studies”—i.e., “regression
analyses that seek to show that the market price of the
defendant’s stock tends to respond to pertinent publicly
reported events.” 573 U.S. at 280. If the defense is able to
attack even one of the Basic elements (or one of the Cammer factors) sufficiently, a court may find that plaintiffs
have failed to prove an efficient market and cannot trigger
the Basic presumption of reliance.
Securities-fraud plaintiffs thus must make a significant showing to invoke the Basic presumption—it is a
much heavier burden before getting the benefit of a
Other courts have made invoking the Basic presumption an even
more demanding showing. In Krogman v. Sterritt, 202 F.R.D. 467, 478
(N.D. Tex. 2001), the court added three additional factors: that (1) investors tend to be more interested in companies with higher market
capitalizations, thus leading to more efficiency; (2) a small bid-ask
spread indicated that trading in the stock was inexpensive, suggesting
efficiency; and (3) if substantial portions of shares are held by insiders, the price is less likely to reflect only the total of all public information. See also Unger v. Amedisys Inc., 401 F.3d 316, 323 (5th Cir.
2005) (suggesting eight factors in non-exhaustive list including the
five Cammer factors).
5

-22presumption than a party typically must bear before benefitting from a legal presumption. See supra at 19–20.
“Fairness” and “common sense” thus dictate that this
hard-won presumption should not vanish just because defendants present evidence calling into question the price
impact of their misrepresentations. It is inconceivable that
plaintiffs would lose all benefit of the presumption simply
because a defendant offered “some” rebuttal evidence.
Indeed, in Halliburton I, Halliburton argued that defendants in every case could satisfy their burden on rebuttal simply by “put[ting] an expert on the stand” and having
the expert “say there was no price impact.” Transcript of
Oral Argument at 39, Erica P. John Fund, Inc. v. Halliburton Co., 563 U.S. 804 (2011) (No. 09-1403). As Justice
Kagan responded, if the Court were to adopt such a rule,
then “the Basic presumption isn’t worth much.” Id. at 40.
It would mean that the defendants could “put an expert on
the stand, and the Basic presumption falls away, and the
plaintiffs have to actually prove their case at that very
early stage.” Id. As the Second Circuit recognized: “The
presumption of reliance would . . . be of little value if it
were so easily overcome.” Waggoner, 875 F.3d at 100–01.
To deprive plaintiffs of the presumption in cases in
which the defendant has not truly rebutted it, but only
proffered some evidence that, if believed, would rebut it,
requires plaintiffs to push a boulder up a mountain, only
to allow the defendants to tap the boulder to push it back
down.
IV. No federal court of appeals has held that defendants
can rebut the Basic presumption by merely producing evidence that there was no price impact.
Federal courts of appeals have uniformly held that defendants seeking to rebut the Basic presumption bear the
burden of proving a lack of price impact by a

-23preponderance of the evidence. Searching for authority,
Goldman Sachs and its amici can only find dicta to support
the sea change in securities law they seek. They cite not a
single case where, after securities plaintiffs established all
the elements of the Basic presumption, a circuit or district
court allowed defendants to rebut it with the mere introduction of contrary evidence. This Court should not destabilize the “careful balance” it struck in Basic and Halliburton II, Petr. Br. at 3, by upending the uniform practice
of lower courts throughout the country and letting defendants burst the Basic presumption with a single piece of evidence.
Circuit courts uniformly hold that the Rule 301
default does not apply.
The Second Circuit is far from alone in rejecting defendants’ Rule 301 argument and concluding that, at the
class certification stage, “defendants must rebut the Basic
presumption by disproving reliance by a preponderance of
the evidence.” Waggoner, 875 at 99. Quite the opposite: No
circuit court has held that defendants can “rebut the Basic
presumption by simply producing some evidence.” Id. at
100.
In In re Allstate Securities Litigation, the Seventh Circuit held that “the fraud-on-the market presumption endorsed in Basic creates a burden-shifting framework,”
whereby, once the plaintiff satisfies the Basic elements,
“the burden of persuasion, not production, to rebut the
Basic presumption shifts to defendants.” 966 F.3d at 610.
Because the Basic presumption is part and parcel of Section 10(b) actions, Rule 301 “imposes no impediment” to
this burden-shifting framework. Id.
The Eleventh Circuit said the same thing. In Local

703, I.B. of T. Grocery and Food Employees Welfare Fund
v. Regions Financial Corporation, that court rejected the

-24notion that submission of any rebuttal evidence is sufficient to rebut the Basic presumption. 762 F.3d 1248, 1252
(11th Cir. 2014). It did not mince words: “Halliburton II
by no means holds that in every case in which such evidence is presented, the presumption will always be defeated.” Id. at 1259.
It is so well-established in some circuits that defendants must carry the burden of persuasion to rebut the
Basic presumption that it is even part of the model jury
instructions. The Fifth and the Ninth Circuit provide two
examples. The Fifth Circuit instruction states that, once a
plaintiff makes its showing, the jury may presume that a
plaintiff relied on a defendant’s misstatement or omission
unless the defendant can rebut that presumption by a preponderance of the evidence. Pattern Civ. Jury Instr. 5th
Cir. § 7.1 (2020). It states:
If you find that Defendant [name] made an
omission or failed to disclose a material fact,
you must presume that Plaintiff [name] relied
on the omission or failure to disclose. Defendant [name] may rebut, or overcome, this presumption if [he/she] proves, by a preponderance of the evidence, that Plaintiff’s [name]’s
decision would not have been affected even if
Defendant [name] had disclosed the omitted
facts.
Id. (emphasis added) (citing Finkel v. Docutel/Olivetti
Corp., 817 F.2d 356, 364 (5th Cir. 1987) (defendant can rebut presumption of fraud on the market “by showing, upon
the shifting of the burden to defendant, that the nondisclosures did not affect the market price.”)).
The Ninth Circuit instruction is to the same effect. It
states that if the plaintiff satisfies the Basic elements by a
preponderance of the evidence, the jury “may find that the

-25plaintiff has proved that [he] [she] [it] relied on the defendant’s statements.” Model Civ. Jury Instr. 9th Cir. § 18.5
(2020). And it places the burden of persuasion for rebutting that presumption on the defendants:
If, however, the defendant proves by a preponderance of the evidence that (1) the plaintiff did
not actually rely on the integrity of the market
or (2) the alleged misrepresentation or omission did not affect the market price of the security, then the defendant has rebutted any presumption that the plaintiff relied on the market.
In that event, the plaintiff must then prove that
[he] [she] [it] justifiably relied directly on the
alleged misrepresentation or omission.
Id. (emphasis added).
Goldman Sachs and its amici cite cases that are
inapposite.
To obfuscate the dramatic change in securities law
their position would usher in, Goldman Sachs and its amici
cite several cases, suggesting that some courts have
adopted their position. Not so. Those cases at best have
dicta supporting the application of Rule 301’s burden of
production, but none holds that the Basic presumption
may be eliminated by introducing a single expert opinion
or piece of evidence suggesting that its misstatements had
no price impact.
Goldman Sachs and its amici primarily rely upon the
Eighth Circuit’s decision in IBEW Local 98 Pension Fund
v. Best Buy Co., which stated that after the plaintiffs established the predicates for the Basic presumption, the
“defendants had the burden to come forward with evidence showing a lack of price impact,” and cited Rule 301.
818 F.3d 775, 782 (8th Cir. 2016); cited at Petr. Br. at 22,

-26Former SEC Officials and Law Professors Amicus Br. at
22, Society for Corporate Governance Amicus Br. at 19
n.18. But that case did not resolve the issue presented
here. First, no party in this case disputes that defendants
do indeed have to “come forward with evidence showing a
lack of price impact,” as the Eighth Circuit stated. All
agree that the defendants at least have the burden of production. The question is whether they also carry the burden of persuasion, which the Eighth Circuit did not address and which was not disputed by the parties in Best
Buy. See Waggoner, 875 F.3d at 103 n.36 (“The Eighth
Circuit’s statement appears to be dictum because the extent of the burden was not at issue.”); see also In re Allstate Corp. Sec. Litig., 966 F.3d at 610 n.4 (reasoning that
the Eighth Circuit’s decision as to the burden of production did not conflict with its decision that defendants also
carry the burden of persuasion to rebut the Basic presumption).
Moreover, the Eighth Circuit’s ultimate holding was
that the defendants’ “overwhelming evidence of no ‘frontend’ price impact rebutted the Basic presumption” and
plaintiffs “presented no contrary evidence of price impact.” Best Buy, 818 F.3d at 782–83. In that situation, any
allocation of the burden of persuasion was of no consequence and the “Eighth Circuit’s ruling did not depend on
the standard of proof.” Waggoner, 875 F.3d at 103 n.36.
Notably, district courts in the Eighth Circuit have recognized that Best Buy’s discussion of Rule 301 was just
dicta and have explicitly declined to read Best Buy as requiring that defendants only satisfy the mild burden under Rule 301 to rebut the Basic presumption. See, e.g., In
re CenturyLink Sales Practices & Sec. Litig., 337 F.R.D.
193, 209 (D. Minn. 2020); Plymouth Cnty. Ret. Sys. v.

-27-

Patterson Cos. Inc., No. CV 18-871 (MJD/HB), 2020 WL

5757695, at *11 (D. Minn. Sept. 28, 2020). 6
The upshot: Accepting Goldman Sachs’ position that it
need only meet a burden of production to rebut the Basic
presumption would upend the consensus of courts
throughout the country. Goldman Sachs seeks to use Rule
301 as a backdoor out of the Basic presumption, undoing
this Court’s decision to affirm that presumption in Halliburton II. As courts across the country agree, Rule 301
provides no such backdoor and this Court should not create one.
CONCLUSION
The Court should affirm as to the second question
presented.

Reaching, Goldman Sach’s amici attempt to show their position
is not an outlier by citing a smattering of district court cases that have
applied Rule 301’s burden of production to defendants rebutting the
Basic presumption. Former SEC Officials and Law Professors Amicus Br. at 23. But even its own citations do not support the point. See
Bing Li v. Aeterna Zentaris, Inc., 324 F.R.D. 331, 345 (D.N.J. 2018),
aff’d sub nom. Vizirgianakis v. Aeterna Zentaris, Inc., 775 F. App’x
51 (3d Cir. 2019) (holding that because “[defense expert’s] report does
not demonstrate the absence of a price impact, Plaintiffs’ presumption
of reliance stands unrebutted”); KBC Asset Mgmt. NV v. 3D Sys.
Corp., No. CV 0:15-2393-MGL, 2017 WL 4297450, at *8 (D.S.C. Sept.
28, 2017) (holding that defendants had not even “presented evidence
sufficient to convince it there was no price impact”).
6

-29Respectfully submitted,
RACHEL BLOOMEKATZ

Counsel ofRecord

BLOOMEKATZ LAW LLC

1148 Neil Avenue
Columbus, OH 43201
(614) 259-7611
rachel@bloomekatzlaw.com
ALLISON EHLERT
EHLERT HICKS, LLP

2001 Addison Street, Suite 300
Berkeley, CA 94709
(510) 833-7339
aehlert@ehlerthicks.com
JEREMY A. LIEBERMAN
EMMA GILMORE
MARC I. GROSS
POMERANTZ LLP

600 3rd Avenue
New York, NY 10016
(212) 661-1100
jalieberman@pomlaw.com
MICHAEL DELL'ANGELO
SHERRIE R. SAVETT
BERGER MONTAGUE

1818 Market Street, Suite 3600
Philadelphia, PA 10103

mdellangelo@bm.net

March 3, 2021

Counsel for Amici Curiae

